Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




      MISSOURI CLAIMED
   FEDERAL REIMBURSEMENT
      FOR UNALLOWABLE
PERSONAL CARE SERVICES CLAIMS


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                  Daniel R. Levinson
                                                   Inspector General

                                                    September 2012
                                                     A-07-11-03171
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act, the Medicaid program provides medical
assistance to low-income individuals and individuals with disabilities. The Federal and State
Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

In Missouri, the Department of Social Services (State agency) administers the Medicaid
program. Responsibility for the administration of personal care services at the State level is
shared between the State agency and the Department of Health and Senior Services (DHSS). In
general, the State agency makes Medicaid eligibility determinations, processes claims for
payment, and reports expenditures for Federal reimbursement. In turn, DHSS makes personal
care services eligibility assessments, performs case management services, oversees development
of the plan of care, and conducts programmatic and operational oversight. During the period
October 1, 2008, through June 30, 2009, the State agency claimed approximately $232 million
(approximately $167 million Federal share) for personal care services. The State agency claims
Medicaid expenditures, including those associated with personal care services, on the Quarterly
Medicaid Statement of Expenditures for the Medical Assistance Program, Form CMS-64
(CMS-64 report).

Pursuant to 42 CFR § 440.167, personal care services may be provided to individuals who are
not inpatients at a hospital or residents of a nursing facility, an Intermediate Care Facility for
Individuals with Intellectual Disabilities, or an Institution for Mental Diseases. The services
must be authorized by a physician pursuant to a plan of treatment or, at the State’s option,
otherwise authorized in accordance with a plan of care approved at the State level. Examples of
personal care services include, but are not limited to, meal preparation, shopping, grooming, and
bathing.

Each claim for personal care services that a provider submits to the State agency for payment can
include multiple line items, each of which represents a service by a particular personal care
services provider delivered to one beneficiary. We grouped these line items by recipient
identification number, first date of service, procedure code, and provider number; we refer to the
results as “grouped line items.” For this audit, we reviewed a random sample of 100 grouped
line items.

OBJECTIVE

Our objective was to determine whether the State agency claimed Federal reimbursement for
personal care services that complied with Federal and State requirements.




                                                 i
SUMMARY OF FINDINGS

For the period October 1, 2008, through June 30, 2009, the State agency claimed Federal
reimbursement for personal care services that did not comply with all Federal and State
requirements. Of the 100 grouped line items in our sample, 50 complied with Federal and State
requirements, but 50 others did not.

Of the 50 grouped line items that did not comply, 7 contained more than 1 deficiency:

   •   For 29 of the grouped line items, an assessment or reassessment was either not performed
       or was not performed within required timeframes.

   •   For 11 of the grouped line items, plans of care were missing or not approved.

   •   For six of the grouped line items, service workers did not meet any of the requirements
       specified in State regulations and were therefore not qualified to perform personal care
       services.

   •   For four of the grouped line items, timesheets were either unsigned or uncertified.

   •   For four of the grouped line items, providers could not furnish documentation supporting
       that personal care services had been provided.

   •   For two of the grouped line items, advanced personal care services were provided without
       having been properly authorized or were provided by a service worker who was not
       qualified.

   •   For one of the grouped line items, the provider could not furnish documentation
       supporting that the consumer (i.e., the beneficiary) of personal care services had been
       trained, as specified in State regulations.

   •   For one of the grouped line items, the units of personal care services delivered to the
       beneficiary exceeded the number of units authorized by the plan of care.

Details on the 50 grouped line items that did not comply with Federal and State requirements
appear in Appendix C.

Using our sample results, we estimated that the State agency claimed $26,740,444 (Federal
share) in reimbursement for personal care services that did not comply with Federal and State
requirements (Appendix B). In addition, the State agency claimed $213,411 (Federal share) for
personal care services that were not supported by the claim data because the State agency did not
have procedures to maintain that supporting documentation.

The errors in the 50 grouped line items, as well as the discrepancy between the State agency’s
claim data and the amounts that it claimed for personal care services, occurred because the State

                                                ii
agency and DHSS did not adequately monitor the personal care services program to ensure that
claims for Federal reimbursement complied with certain Federal and State requirements.
We are questioning a total of $26,953,855 (Federal share) in unallowable expenditures. This
amount consists of the estimated $26,740,444 that the State agency claimed in unallowable
personal care services expenditures and an additional $213,411 in personal care services that
were not supported by the claim data.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $26,953,855 to the Federal Government,

   •   implement procedures to ensure that it adequately supports the costs claimed for personal
       care services on the CMS-64 reports and maintains that supporting documentation, and

   •   work with DHSS to improve its policies and procedures for monitoring the personal care
       services program for compliance with Federal and State requirements.

STATE AGENCY COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the State agency agreed with our last two
recommendations and described corrective actions that it had taken or planned to take, but it
disagreed with our first recommendation regarding the refund to the Federal Government. The
State agency said that a Federal refund was generally not an appropriate remedy for the
deficiencies that we cited in our findings. The State agency also disagreed with our methodology
for statistical sampling and projection. Specifically, the State agency said that (1) we
misunderstood Missouri’s reassessment requirements; (2) most of our findings constituted not
violations of Federal law but rather instances of noncompliance (or missing documentation of
compliance) with State-imposed technical requirements; (3) a Federal disallowance for
noncompliance with State law was inappropriate; and (4) it was inappropriate for us to use
extrapolation (that is, projection from a statistical sample) to develop the amount of our
recommended disallowance. The State agency also stated that certain sampled grouped line
items should have been allowed rather than denied.

The State agency’s comments are included in their entirety as Appendix D.

After reviewing the State agency’s comments, we maintain that our findings and
recommendations are valid. The fact that Federal regulations and the State plan do not always
provide detailed specifications regarding the administration and provision of personal care
services, or are sometimes silent as to specific requirements for those services, does not take
precedence over specific requirements in State laws and regulations. Further, the methodology
we used to select the sample and the methodology we used to evaluate the results of that sample
resulted in an unbiased extrapolation (estimate) of the State agency’s personal care services.
(Details of our sampling and projection methodologies, including our use of random sample

                                               iii
selection, appear in Appendixes A and B.) In addition, courts have long approved the validity of
sampling and extrapolation as part of audits in connection with Federal health programs.
Therefore, we continue to recommend that the State agency refund the entire $26,953,855
(Federal share) for unallowable personal care services claims.




                                               iv
                                                  TABLE OF CONTENTS

                                                                                                                                      Page

INTRODUCTION........................................................................................................................1

          BACKGROUND ...............................................................................................................1
              Medicaid Program .................................................................................................1
              Missouri’s Medicaid Program ...............................................................................1
              Missouri’s Personal Care Services Program .........................................................1
              Federal and State Requirements Related to Personal Care Services .....................2

          OBJECTIVE, SCOPE, AND METHODOLOGY .............................................................3
               Objective ................................................................................................................3
               Scope ......................................................................................................................3
               Methodology ..........................................................................................................3

FINDINGS AND RECOMMENDATIONS ..............................................................................5

          UNALLOWABLE GROUPED LINE ITEM COSTS.......................................................6
              Assessment or Reassessments Not Performed or Not Performed Timely .............6
              Missing or Unapproved Plans of Care ...................................................................7
              Service Workers Not Qualified ..............................................................................7
              Discrepancies Involving Timesheets .....................................................................8
              Services Not Documented......................................................................................8
              Advanced Personal Care Services Not Authorized or
                Service Worker Not Qualified ............................................................................9
              Beneficiary Not Trained ........................................................................................9
              Units of Service Exceeded Those Specified in Plan of Care ...............................10

          CLAIMED AMOUNT INSUFFICIENTLY SUPPORTED............................................10

          PERSONAL CARE SERVICES PROGRAM
           NOT ADEQUATELY MONITORED .........................................................................11

          EFFECT OF ERRORS IN PERSONAL CARE SERVICES PROGRAM .....................11

          RECOMMENDATIONS ................................................................................................11

          STATE AGENCY COMMENTS AND
           OFFICE OF INSPECTOR GENERAL RESPONSE ....................................................12
                Requirements for Performance of Assessments and Reassessments ...................12
                Noncompliance With State-Imposed Technical Requirements ...........................13
                Technical Errors in Documentation .....................................................................14
                Units of Service....................................................................................................14
                Statistical Sampling Methodology .......................................................................15

                                                                     v
APPENDIXES

    A: SAMPLING METHODOLOGY

    B: SAMPLE RESULTS AND ESTIMATES

    C: RESULTS FOR EACH SAMPLED ITEM

    D: STATE AGENCY COMMENTS




                               vi
                                               INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

Missouri’s Medicaid Program

In Missouri, the Department of Social Services (State agency) administers Medicaid. The State
agency claims Medicaid expenditures, including those associated with personal care services, on
the Quarterly Medicaid Statement of Expenditures for the Medical Assistance Program, Form
CMS-64 (CMS-64 report). The CMS-64 report shows Medicaid expenditures for the quarter
being reported and any prior-period adjustments. It also accounts for any overpayments,
underpayments, and refunds received by the State agency.

The Federal Government’s share of costs is known as the Federal medical assistance percentage
(FMAP). For the period October 1, 2008, through March 31, 2009, the FMAP rate in Missouri
was 71.24 percent. For the period April 1, 2009, through June 30, 2009, the amount was
increased to 73.27 percent. 1

Missouri’s Personal Care Services Program

In Missouri, responsibility for the administration of personal care services at the State level is
shared between the State agency and the Department of Health and Senior Services (DHSS). In
general, the State agency makes Medicaid eligibility determinations, processes claims for
payment, and reports expenditures for Federal reimbursement. By formal agreement with the
State agency, 2 DHSS develops plans of care for beneficiaries, authorizes services, and performs
case management. More specifically, DHSS performs reviews that include assessments and
reassessments of the necessity for, appropriateness of, and adequacy of the in-home and
consumer-directed personal care services that beneficiaries receive.

All potential personal care services providers must submit a proposal to DHSS outlining their
business practices and demonstrating an ability to serve the needs of beneficiaries in accordance
with applicable Federal and State requirements.

1
 Pursuant to the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5, as amended by
P.L. No. 111-226, States’ FMAPs were temporarily increased for the period October 1, 2008, through June 30, 2011.
2
    The agreement was effective on July 1, 2005.

                                                       1
For a Medicaid beneficiary to qualify for personal care services, DHSS must assess the
beneficiary for eligibility for personal care services and the required level of care, approve the
services, and provide case management. If the beneficiary meets all of the eligibility and
assessment criteria, DHSS develops an initial plan of care to authorize these services.

Missouri identifies four types of personal care services: basic, advanced, authorized nurse visit,
and consumer-directed services. Basic personal care services are medically oriented
maintenance services to assist with the activities of daily living when this assistance does not
require devices or procedures related to altered body functions. Advanced personal care services
are maintenance services provided to a beneficiary in the home to assist with activities of daily
living when this assistance requires devices and procedures related to altered body functions.
Authorized nurse visits are skilled nursing services of a maintenance or preventive nature
provided to clients with stable chronic medical conditions. Consumer-directed services are those
in which the consumer (i.e., the beneficiary) directs his or her care by hiring, training,
supervising, and directing the service worker. 3

Federal and State Requirements Related to Personal Care Services

DHSS and the providers must comply with Federal and State requirements in determining
whether beneficiaries are eligible for personal care services. Pursuant to section 1905(a)(24) of
the Act and implementing Federal regulations (42 CFR § 440.167), personal care services must
be (1) authorized for an individual by a physician in a plan of treatment or in accordance with a
plan of care approved by the State; (2) provided by an individual who is qualified to provide
such services and who is not a member of the individual’s family; 4 and (3) furnished in a home
or, at the State’s option, in another location.

Pursuant to 42 CFR § 430.30(c) and the CMS State Medicaid Manual, section 2500.2, the
amounts reported on the CMS-64 report and its attachments must represent actual expenditures
for which all supporting documentation, in readily reviewable form, has been compiled and is
available at the time the claim is filed. Further, claims developed on the basis of estimates are
not allowable.

State regulations at 13 Code of State Regulations (CSR) § 70-91.010 state: “Personal care
services are authorized by a physician in accordance with a plan of care or otherwise authorized
in accordance with a service plan approved by the state.” This regulation also states, as quoted
below:

        (1) Persons Eligible for Personal Care Services ….

             (B) Obtaining Personal Care Services ….


3
  Relevant criteria use the terms “in-home service workers,” “service workers,” and “aides” as synonyms. In this
report, we will say “service workers” except when quoting.
4
 There are no Federal requirements for attendant qualification. However, States are required to develop
qualifications or requirements for attendants to ensure quality of care.

                                                         2
                     2. The personal care plan will be developed in collaboration with and
                     signed by the recipient. The plan will include a list of tasks to be
                     performed, weekly schedule of service delivery, and the maximum
                     number of units of service for which the recipient is eligible per month.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency claimed Federal reimbursement for
personal care services that complied with Federal and State requirements.

Scope

Our audit period covered October 1, 2008, through June 30, 2009. During this period, the State
agency claimed personal care services costs totaling approximately $232 million (approximately
$167 million Federal share). We excluded claims from one provider because we are reviewing
those claims separately in an ongoing audit. 5

Each claim for personal care services that a provider submits to the State agency for payment can
include multiple line items, each of which represents a service by a particular personal care
services provider delivered to one beneficiary. We grouped these line items by recipient
identification number, first date of service, procedure code, and provider number; we refer to the
results as “grouped line items.” 6 Our sample frame consisted of 4,517,312 grouped line items
totaling $225,256,674 for claims that the State agency processed and claimed for personal care
services (Appendix B).

We did not review the overall internal control structure of the State agency or DHSS. We
limited our internal control review to those controls related to our objective.

We conducted fieldwork at the State agency in Jefferson City, Missouri, and at 62 providers
throughout Missouri.

Methodology

To accomplish our objective, we:

      •    reviewed applicable Federal and State laws, regulations, and guidance;

      •    held discussions with CMS, State agency, and DHSS officials to gain an understanding of
           the personal care services program;


5
    The provider is The Whole Person, Incorporated, based in Kansas City, Missouri.
6
 We also excluded grouped line items in which the net amount was zero or a negative number because of factors
such as adjustments.

                                                          3
    •   compared claim data provided by the State agency to the amount claimed on the CMS-64
        report;

    •   created a sample frame of 4,517,312 grouped line items totaling $225,256,674 for claims
        that the State agency processed and claimed for personal care services (Appendix A);

    •   selected a random sample of 100 grouped line items (Appendix A), for which we:

        o analyzed Medicaid claim data to determine whether each beneficiary was residing in
          a hospital, a nursing facility, an Intermediate Care Facility for Individuals with
          Intellectual Disabilities, 7 or an Institution for Mental Diseases on the date of service;

        o analyzed Medicaid claim data to assess whether the claims exceeded the monthly
          authorized units of the plan of care;

        o reviewed provider documentation supporting each grouped line item;

        o determined whether the beneficiary was assessed as needing an institutional level of
          care;

        o determined whether the plan of care was supported by an assessment/reassessment
          and was properly authorized;

        o determined whether the addenda to the Medicaid participation agreements between
          DHSS and providers allowed for delivery of advanced personal care services;

        o determined whether the service workers delivering personal care services to
          beneficiaries were qualified, properly screened, and properly trained and supervised;
          and

        o determined whether the beneficiaries receiving consumer-directed services were
          properly trained;

    •   estimated the unallowable Medicaid personal care service costs from the 4,517,312
        grouped line items (Appendixes A and B); and

    •   discussed the results of our review with State agency and DHSS officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

7
 Changes in terminology are based on Rosa’s Law (P.L. No. 111-256). For more information see CMS Final Rule,
77 Fed. Reg. 29002, 29021, and 29028 (May 16, 2012).

                                                     4
                          FINDINGS AND RECOMMENDATIONS

For the period October 1, 2008, through June 30, 2009, the State agency claimed Federal
reimbursement for personal care services that did not comply with all Federal and State
requirements. Of the 100 grouped line items in our sample, 50 complied with Federal and State
requirements, but 50 others did not.

Of the 50 grouped line items that did not comply, 7 contained more than 1 deficiency:

   •   For 29 of the grouped line items, an assessment or reassessment was either not performed
       or was not performed within required timeframes.

   •   For 11 of the grouped line items, plans of care were missing or not approved.

   •   For six of the grouped line items, service workers did not meet any of the requirements
       specified in State regulations and were therefore not qualified to perform personal care
       services.

   •   For four of the grouped line items, timesheets were either unsigned or uncertified.

   •   For four of the grouped line items, providers could not furnish documentation supporting
       that personal care services had been provided.

   •   For two of the grouped line items, advanced personal care services were provided without
       having been properly authorized or were provided by a service worker who was not
       qualified.

   •   For one of the grouped line items, the provider could not furnish documentation
       supporting that the consumer (i.e., the beneficiary) of personal care services had been
       trained, as specified in State regulations.

   •   For one of the grouped line items, the units of personal care services delivered to the
       beneficiary exceeded the number of units authorized by the plan of care.

Details on the 50 grouped line items that did not comply with Federal and State requirements
appear in Appendix C.

Using our sample results, we estimated that the State agency claimed $26,740,444 (Federal
share) in reimbursement for personal care services that did not comply with Federal and State
requirements (Appendix B). In addition, the State agency claimed $213,411 (Federal share) for
personal care services that were not supported by the claim data because the State agency did not
have procedures to maintain that supporting documentation.

The errors in the 50 grouped line items, as well as the discrepancy between the State agency’s
claim data and the amounts that it claimed for personal care services, occurred because the State


                                                5
agency and DHSS did not adequately monitor the personal care services program to ensure that
claims for Federal reimbursement complied with certain Federal and State requirements.

We are questioning a total of $26,953,855 (Federal share) in unallowable expenditures. This
amount consists of an estimated $26,740,444 that the State agency claimed in unallowable
personal care services expenditures and an additional $213,411 in personal care services that
were not supported by the claim data.

UNALLOWABLE GROUPED LINE ITEM COSTS

Assessments or Reassessments Not Performed or Not Performed Timely

Federal regulations (42 CFR § 440.167(a)(1)) require that personal care services be “[a]uthorized
for the individual by a physician in accordance with a plan of treatment or (at the option of the
State) otherwise authorized for the individual in accordance with a service plan approved by the
State ….” 8 In addition, section 2497.1 of the CMS State Medicaid Manual states that
expenditures require adequate supporting documentation to be allowable for Federal
reimbursement.

Pursuant to State statute (Missouri Revised Statute § 208.906.5): “The needs of the consumer
shall be reevaluated annually by the department, and the amount of assistance authorized by the
department shall be maintained, adjusted, or eliminated accordingly” (emphasis added).
Missouri Revised Statute § 208.930(8)(1) also makes provisions for annual reevaluation 9 of
continued eligibility and necessity for personal care services and for adjustments to or
elimination of services in the plan of care accordingly. 10

In addition to the statutory requirement for an annual reassessment, State regulations (13 CSR
§§ 70-91.010(1)(B)(1) and (3)) also require that the provider always have, and provide services
in accordance with, a current plan of care and that this plan of care be based on eligibility
determined by an in-home assessment.

For 29 of the 100 grouped line items sampled, an assessment or reassessment was either not
performed or was not performed within required timeframes. Specifically, the assessments or
reassessments for 25 grouped line items were dated more than 1 year before the date of the plan
of care for these beneficiaries. (Twelve of these twenty-five grouped line items had not had a
reassessment for more than 2 years before the dates of the plan of care, and of those, three
grouped line items had not had a reassessment for more than 4 years before the date of the plan


8
 Federal and State requirements for personal care services use the terms “plan of treatment,” “service plan,” “care
plan,” and “plan of care” in essentially synonymous ways. In this report, we use “plan of care” except when
quoting.
9
 Relevant criteria use the terms “reevaluate” and “reassess” as synonyms. In this report, we will say “reassessment”
except when quoting.
10
   In addition, we noted that 19 CSR §§ 15-8.200 (4) and (7) also reinforce the need for an annual reassessment that
is reflected in the plan of care.

                                                          6
of care.) In addition, for four grouped line items, neither DHSS nor the providers could find the
assessments or reassessments upon which the plan of care was based.

Because the 29 grouped line items did not have documentation supporting that assessments or
reassessments had been performed within 1 year of the date of the beneficiaries’ plans of care,
these grouped line items were not allowable for Federal reimbursement.

Missing or Unapproved Plans of Care

Federal regulations (42 CFR § 440.167(a)) state: “(a) Personal care services means services …
(1) [a]uthorized for the individual by a physician in accordance with a plan of treatment or (at the
option of the State) otherwise authorized for the individual in accordance with a service plan
approved by the State ….”

State regulations (13 CSR § 70-91.010) state: “Personal care services are authorized by a
physician in accordance with a plan of care or otherwise authorized in accordance with a service
plan approved by the state.” 11 Further, State regulations (13 CSR 70-91.010(1)(B)(2)) require
that “[t]he personal care plan will be developed in collaboration with and signed by the
recipient.”

For 11 of the 100 grouped line items sampled, plans of care were missing or not approved
pursuant to Federal and State requirements. Specifically, neither DHSS nor the providers could
find the plans of care associated with seven of the grouped line items. In addition, four grouped
line items had plans of care that were not signed by the consumer and/or had not been approved
by DHSS.

Because the 11 grouped line items had plans of care that were missing or unapproved, they were
not allowable for Federal reimbursement.

Service Workers Not Qualified

Federal regulations (42 CFR § 440.167(a)) state: “Personal care services means services …
(2) [p]rovided by an individual who is qualified to provide such services ….”

State regulations (19 CSR § 15-7.021(19)(C)) 12 state, as quoted below:

           (C) All in-home service workers employed by the provider shall meet the
           following requirements: ….

           (2) … meet at least one (1) of the following requirements:



11
  Other criteria related to plans of care included 13 CSR §§ 70-91.010(5)(D), (5)(F)(2)(A), and (6)(A), and 19 CSR
§§ 15-7.021(24), 15-8.200(4)(B)1.-6., and 15-8.400(9).
12
     These requirements also appear at 13 CSR § 70-91.010(3)(K)3.

                                                         7
        A. Have at least six (6) months paid work experience as an agency homemaker,
        nurse aide, maid or household worker; or

        B. At least one (1) years experience, paid or unpaid, in caring for children or for
        sick or aged individuals; or

        C. Successful completion of formal training in nursing arts or as a nurse aide or
        home health aide.

For 6 of the 100 grouped line items sampled, the service workers did not meet any of the 3
requirements specified in State regulations. Because these service workers were not qualified to
perform personal care services, these grouped line items were not allowable for Federal
reimbursement.

Discrepancies Involving Timesheets

State regulations (13 CSR § 70-91.010(4)(A)(2)(F)) require that documentation for services must
include “[f]or each date of service: the signature of the recipient, or the mark of the recipient
witnessed by at least one (1) person, or the signature of another responsible person present in the
recipient’s home or licensed Residential Care Facility … at the time of service.” In addition,
State regulations (19 § CSR 15-8.400(2)) specify that the vendor will certify the accuracy of the
service workers’ timesheets. 13

For 4 of the 100 grouped line items sampled, the timesheets had either not been signed by the
beneficiaries or were not certified. For 3 of the 100 grouped line items sampled, the timesheets
had not been signed by the beneficiaries. In addition, the timesheet associated with one grouped
line item had not been certified as accurate by the vendor. Because of these timesheet errors,
these grouped line items were not allowable for Federal reimbursement.

Services Not Documented

Pursuant to section 1902(a)(27) of the Act, a State plan for medical assistance must have an
agreement with every institution “… to keep such records as are necessary fully to disclose the
extent of the services provided to individuals receiving assistance under the State plan ….” In
addition, section 2497.1 of the CMS State Medicaid Manual states that expenditures require
adequate supporting documentation to be allowable for Federal reimbursement.

Pursuant to State regulations (13 CSR § 70-3.030(2)(A)), all documentation must be made
available at the same site at which the service was rendered. In addition, 19 CSR § 15-7.021(24)
requires that documentation for in-home personal care services providers be retained for a
minimum of 5 years.



13
  For consumer-directed cases (one of the four types of personal care services discussed in “Background”), vendors
do not provide the service, but rather perform accounting functions for consumers (i.e., beneficiaries), including
certain oversight functions.

                                                        8
For 4 of the 100 grouped line items sampled, providers could not furnish documentation
supporting that personal care services had been provided. Because the providers lacked
documentation for the four grouped items, they were not allowable for Federal reimbursement.

Advanced Personal Care Services Not Authorized or
Service Worker Not Qualified

Federal regulations (42 CFR § 440.167(a)) state: “Personal care services means services …
(1) [a]uthorized for the individual by a physician in accordance with a plan of treatment or (at the
option of the State) otherwise authorized for the individual in accordance with a service plan
approved by the State.”

State regulations (13 CSR § 70-91.010(5)(E)) state:

       (E) Criteria for Providers of Advanced Personal Care Services. Providers of
       advanced personal care must meet all criteria for providers of personal care
       services described in section (3) of this rule. Providers must sign an addendum to
       their Title XIX Personal Care Provider Agreement, and must possess a valid
       contract with the Department of Health and Senior Services, Division of Senior
       Services and Regulation to provide Title XX services including advanced
       personal care services .… All advanced personal care aides employed by the
       provider must be an LPN [Licensed Practical Nurse], or a certified nurse assistant;
       or a competency evaluated home health aide having completed both written and
       demonstration portions of the test required by the Missouri Department of Health
       and Senior Services and 42 CFR 484.36; or have successfully worked for the
       provider for a minimum of three (3) consecutive months while working at least
       fifteen (15) hours per week as an in-home aide that has received personal care
       training.

For 2 of the 100 grouped line items sampled, advanced personal care services (one of the 4 types
of personal care services discussed in “Background”) were provided without having been
properly authorized or were provided by a service worker who was not qualified. Specifically,
for one grouped line item, the provider did not have an addendum to the personal care services
provider agreement on file. In addition, for one grouped line item, the service worker employed
by the provider to furnish advanced personal care services did not meet the State’s requirements
for an individual furnishing that level of service.

Because these two grouped line items involved advanced personal care services that were not
properly authorized or provided by a service worker who was not qualified, they were not
allowable for Federal reimbursement.

Beneficiary Not Trained

State regulations (19 CSR § 15-8.400(4)) state:




                                                  9
       In addition to the above requirements, vendors shall be responsible, directly or by
       contract, for the following: …

       (B) Training and orientation of consumers in the skills needed to recruit, employ,
       instruct, supervise and maintain the services of attendants including, but not
       limited to:

       1. Assisting consumers in the general orientation of attendants as requested by
       the consumer;

       2. Preparation of time sheets;

       3. Identification of issues that would be considered fraud of the program;

       4. Allowable and non-allowable tasks;

       5. Rights and responsibilities of the attendant; and

       6. Identification of abuse, neglect, and/or exploitation ….

For 1 of the 100 grouped line items sampled, the provider could not furnish documentation
supporting that the beneficiary receiving consumer-directed services had been trained as
specified in State regulations. Accordingly, this grouped line item was not allowable for Federal
reimbursement.

Units of Service Exceeded Those Specified in Plan of Care

Federal regulations (42 CFR § 440.167(a)) state: “Personal care services means services …
(1) [a]uthorized for the individual by a physician in accordance with a plan of treatment or (at the
option of the State) otherwise authorized for the individual in accordance with a service plan
approved by the State.”

State regulations (19 CSR § 15-8.200(6)(C)) specify that units of service submitted for
reimbursement cannot exceed the units of service authorized by the plan of care.

For 1 of the 100 grouped line items sampled, the units of personal care services delivered to the
beneficiary exceeded the number of units authorized by the plan of care. Accordingly, the costs
associated with the portion of the units of service that exceeded the authorized amount for this
grouped line item were not allowable for Federal reimbursement.

CLAIMED AMOUNT INSUFFICIENTLY SUPPORTED

Section 2500(A)(1) of the CMS State Medicaid Manual states: “The amounts reported on
Form HCFA-64 [CMS-64 report] and its attachments must be actual expenditures for which all
supporting documentation, in readily reviewable form, has been compiled and is available



                                                10
immediately at the time the claim is filed …. Claims developed through the use of … estimates
… are not allowable under any circumstances.”

The State agency’s claim data did not match the amounts claimed for personal care services on
the CMS-64 report. Specifically, for our audit period, the State agency claimed $232,109,318
for personal care services on the CMS-64 report, but the claim data supported only
$231,814,131. The State agency did not maintain documentation to support its claimed amounts
because the State agency did not have procedures to maintain that supporting documentation.
The difference between what was claimed and supporting claim data totaled $295,187 ($213,411
Federal share). Because the State agency could not explain or document this discrepancy, we are
questioning the $213,411.

PERSONAL CARE SERVICES PROGRAM
NOT ADEQUATELY MONITORED

The errors in the 50 grouped line items, as well as the discrepancy between the State agency’s
claim data and the amounts that it claimed for personal care services on the CMS-64 report,
occurred because the State agency and DHSS did not adequately monitor the personal care
services program to ensure that claims for Federal reimbursement complied with certain Federal
and State requirements. Neither the State agency’s nor DHSS’s policies and procedures were
sufficient to ensure that the State agency adequately monitored the personal care services
program. Specifically, the policies and procedures could be improved to ensure that the
assessments, plans of care, and timesheets were completed correctly and within required
timeframes; service workers were qualified; advanced personal care services were properly
authorized; all necessary documentation was maintained; and units of personal care services did
not exceed the number of units authorized by the plan of care.

EFFECT OF ERRORS IN PERSONAL CARE SERVICES PROGRAM

Of the 100 personal care services grouped line items in our sample, 50 did not comply with
Federal and State requirements. Based on our sample results, we estimated that the State agency
claimed $26,740,444 (Federal share) in unallowable personal care services expenditures
(Appendix B). The State agency claimed an additional $213,411 (Federal share) in personal care
services that were not supported by claim data. We are therefore questioning a total of
$26,953,855 (Federal share) in unallowable expenditures.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $26,953,855 to the Federal Government,

   •   implement procedures to ensure that it adequately supports the costs claimed for personal
       care services on the CMS-64 reports and maintains that supporting documentation, and




                                              11
   •   work with DHSS to improve its policies and procedures for monitoring the personal care
       services program for compliance with Federal and State requirements.

STATE AGENCY COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the State agency agreed with our last two
recommendations and described corrective actions that it had taken or planned to take, but it
disagreed with our first recommendation regarding the refund to the Federal Government. A
summary of the State agency’s comments and our response follows. The State agency organized
its comments on our first recommendation along thematic lines rather than along the lines of our
findings, and we have followed that structure in developing this summary. The State agency said
that a Federal refund was generally not an appropriate remedy for the deficiencies that we cited
in our findings. The State agency also disagreed with our methodology for statistical sampling
and projection.

The State agency’s comments appear in their entirety as Appendix D.

After reviewing the State agency’s comments, we maintain that our findings and
recommendations are valid.

Requirements for Performance of Assessments and Reassessments

State Agency Comments

The State agency said that we misunderstood Missouri’s reassessment requirements. The State
agency said that neither Federal regulations nor the State plan requires annual reassessments:
“The state plan section covering consumer-directed personal care services, like the federal
regulations, is silent about the need or timing of reassessments.” The State agency added that the
State statute (Missouri Revised Statute § 208.152.1(14)) that authorizes Medicaid payments for
personal care services does not require reassessments within a particular timeframe. The State
agency added that it “… has recently taken steps to ensure that reassessments are completed
annually.”

Office of Inspector General Response

We disagree with the State agency’s assertion that we misunderstood Missouri’s reassessment
requirements. Although neither Federal regulations nor the State plan specifically require an
annual reassessment, and the Missouri statute cited by the State agency does not require
reassessments within a particular timeframe, other Missouri requirements mandate annual
reassessments.

As cited earlier, State statute (Missouri Revised Statute § 208.906.5) states: “The needs of the
consumer shall be reevaluated annually by the department, and the amount of assistance
authorized by the department shall be maintained, adjusted, or eliminated accordingly”
(emphasis added). Missouri Revised Statute § 208.930(8)(1) also makes provisions for annual

                                                12
reevaluation of continued eligibility and necessity for personal care services and for adjustments
to or elimination of services in the plan of care accordingly. Additionally, 19 CSR §§ 15-8.200
(4) and (7) reinforce the need for an annual reassessment that is reflected in the plan of care.

Accordingly, the fact that Federal regulations and the State plan are silent as to specific
requirements does not take precedence over specific requirements in State laws and regulations.
To provide a valid and payable service, personal care services must meet Federal requirements in
42 CFR § 440.167, which require, among other things, that personal care services be provided
“in accordance with a service plan approved by the State.” Missouri statutes and regulations
require annual reassessments for the service plan to be approved by the State (Missouri Revised
Statute § 208.906.5 and § 208.930(8)(1); 19 CSR §§ 15-8.200 (4) and (7)). Accordingly, without
an annual reassessment, there is no approved service plan, and thus, no valid and payable
service.

Noncompliance With State-Imposed Technical Requirements

State Agency Comments

With respect not only to our finding on the assessments and reassessments, but also to most of
our other findings, the State agency said that these findings did not constitute violations of
Federal law, “… but rather amount to allegations of noncompliance—or missing documentation
of compliance—with State imposed technical requirements.” Specifically, the State agency said
that Federal law does not require particular service worker qualifications, specific signatures on
or certification of timesheets, rules for the provision of advanced personal care services, or
particular training for beneficiaries of consumer-directed services. “While state regulations do
set forth these requirements, they do not require recoupment…. At least where, as here, state law
does not require recoupment for the type of alleged violation at issue, it is inappropriate to take a
federal disallowance based on noncompliance with state law.”

Office of Inspector General Response

Although Federal requirements do not provide specifications regarding the administration and
provision of personal care services, such specific requirements appear in State regulations—as
the State agency acknowledged in its comments.

Office of Management and Budget (OMB) Circular A-87 (as codified by 2 CFR part 225)
establishes principles and standards for determining costs for Federal awards carried out through
grants, cost reimbursement contracts, and other agreements with State and local governments and
federally recognized Indian tribal governments. Per OMB Circular A-87, “To be allowable
under Federal awards, costs must meet the following general criteria: … (c) Be authorized or not
prohibited under State or local laws or regulations.” The State agency has a responsibility to
comply with State laws and regulations. Therefore, pursuant to OMB Circular A-87, we may
conduct an audit to determine whether Federal payments have been made in violation of State
laws and regulations, and we may recommend disallowance of Federal funding on the
findings of such an audit.



                                                 13
Technical Errors in Documentation

State Agency Comments

The State agency said that most of the claims that we characterized as unallowable (in part or
full) pertained to personal care services that were provided to eligible Medicaid beneficiaries but
for which there was a technical violation of Federal or State law. The State agency added, “As
with the reassessments, under these circumstances, a federal refund is not an appropriate
remedy.” The State agency applied the description of “technical violation” to our findings on
missing or unapproved plans of care, service workers not qualified, discrepancies involving
timesheets, and a beneficiary not trained.

Regarding the plans of care, the State agency said that we had incorrectly disallowed at least four
grouped line items for which it had subsequently found additional documentation.

Office of Inspector General Response

The State agency’s comments suggest that noncompliance with Federal and State requirements is
acceptable, and a refund to the Federal Government is not appropriate so long as eligible
beneficiaries receive services. We disagree. We based determinations of deficiencies on Federal
and State regulatory requirements that are integral to the definition of personal care services and
that must be met for the services to be payable as medical assistance. The Federal and State laws
and other requirements that we cite in presenting our findings protect the integrity of the
Medicaid program and, more importantly, the health and safety of Medicaid beneficiaries.
Moreover, at no point in its comments did the State agency provide any evidence that our
determinations on those sampled claims were invalid.

Although the State agency said that it had found additional documentation for four grouped line
items that formed part of our finding on missing or unapproved plans of care, we have not
received any of this documentation or any additional information, either at the exit conference
(during which we discussed these findings with State agency officials) or afterward.

Units of Service

State Agency Comments

With respect to our finding that for one of the grouped line items, the units of personal care
services delivered to the beneficiary exceeded the number of units authorized by the plan of care,
the State agency said that, according to its database, the beneficiary was actually authorized to
receive services in excess of the units claimed. The State agency added that the plan of care was
likely filled out in error.




                                                14
Office of Inspector General Response

Although the State agency said that the plan of care was filled out in error, it provided no
evidence to support that statement. Additionally, the State agency’s database should be based on
the information provided in the plan of care, not vice versa.

State regulations (19 CSR § 15-8.200(6)(C)) specify that units of service submitted for
reimbursement may not exceed the units of service authorized by the plan of care. Therefore,
services provided in excess of authorized units under a plan of care may not be reimbursed and
should be disallowed per State regulations.

Statistical Sampling Methodology

State Agency Comments

The State agency predicated its disagreement with our first recommendation on its disagreement
with our sampling methodology: “The State opposes the use of a 100-claim sample to draw
conclusions about 4.5 million claims submitted by hundreds of providers located in different
areas throughout the State …. The small number of alleged violations … demonstrates that there
is no widespread or systemic noncompliance, and therefore extrapolation is unwarranted.”

Office of Inspector General Response

The methodology we used to select the sample and the methodology we used to evaluate the
results of that sample have resulted in an unbiased extrapolation (estimate) of the State agency’s
personal care services. As stated in New York State Department of Social Services, U.S.
Department of Health and Human Services, Departmental Appeals Board (DAB) No. 1358
(1992), “… sampling (and extrapolation from a sample) done in accordance with scientifically
accepted rules and conventions has a high degree of probability of being close to the finding
which would have resulted from individual consideration of numerous cost items and, indeed,
may be even more accurate, since clerical and other errors can reduce the accuracy of a 100%
review.”

The State agency sample was selected according to principles of probability (every sampling unit
has a known, nonzero chance of selection). In Sample Design in Business Research,
W. Edwards Deming (1960) states: “An estimate made from a sample is valid if it is unbiased or
nearly so and if we can compute its margin of sampling error for a given probability.”

Courts have long approved the validity of the use of sampling and extrapolation as part of audits
in connection with Federal health programs. 14 In particular, “[p]rojection of the nature of a large

14
  See, e.g., New Jersey Dept. of Human Services, DAB No. 2415 (2011) (noting that courts and DAB have long
upheld the use of statistically valid sampling methods as a basis for determining disallowance amounts); State of
Georgia v. Califano, 446 F. Supp. 404, 409-410 (N.D. Ga. 1977) (ruling that sampling and extrapolation are
recognized as valid audit techniques for programs under Title IV of the Act); Ratanasen v. California Dept. of
Health Servs., 11 F. 3d 1467, 1471-72 (9th Cir. 1993) (ruling that simple random sampling and subsequent
extrapolation were valid techniques to calculate Medi-Cal overpayments); Illinois Physicians Union v. Miller,

                                                         15
population through review of a relatively small number of its components has been recognized as
a valid audit technique.” 15 Courts have not determined how large a percentage of the entire
universe must be sampled to be held valid; 16 however, the type of sample used here—a simple
random sample—is recognized as a valid type of collection for extrapolation purposes. 17
Further, such statistical sampling and such a methodology may be used in cases seeking recovery
against States and individual providers or private institutions alike.18

In addition, if we had used a larger sample size, as the State agency implies, our recommended
disallowance would probably have been higher. A larger sample size usually yields estimates
with better precision without affecting the estimate of the mean. Better precision, in turn,
typically results in a larger lower limit for the confidence interval of the estimate. Therefore, had
we used a sample size larger than 100, the estimated lower limit for the 90-percent confidence
interval—and thus our recommended disallowance—would probably have been a higher amount.




 675 F. 2d 151, 155-56 (7th Cir. 1982) (ruling that random sampling and extrapolation were valid statistical
techniques to calculate Medicaid overpayments claimed against an individual physician).
15
     State of Georgia v. Califano, 446 F. Supp. 404, 409 (N.D. Ga. 1977).
16
     Michigan Department of Education v. U.S. Department of Education, 875 F. 2d 1196, 1206 (6th Cir. 1989).
17
     Ratanasen v. California Dept. of Health Servs., 11 F. 3d 1467, 1471-72 (9th Cir. 1993).
18
     Illinois Physicians Union v. Miller, 675 F. 2d 151, 155-56 (7th Cir. 1982).

                                                            16
APPENDIXES
                      APPENDIX A: SAMPLING METHODOLOGY

POPULATION

The population consisted of Medicaid personal care services claims paid by the State of Missouri
and subsequently submitted for Federal reimbursement for all providers statewide during the
period October 1, 2008, through June 30, 2009, excluding claims from one provider (The Whole
Person, Incorporated), which we are separately reviewing in an ongoing audit.

SAMPLING FRAME

Each claim for personal care services that a provider submits to the Missouri Department of
Social Services for payment can include multiple line items in which each line represents a
service by a particular personal care service provider delivered to one beneficiary. We grouped
these claims by recipient identification number, first date of service, procedure code, and
provider number; we refer to the result as “grouped line items.” The sampling frame consisted
of 4,517,312 grouped line items totaling $225,256,674 for personal care services paid to
providers and subsequently claimed for Federal reimbursement during our audit period.

SAMPLING UNIT

The sampling unit was a grouped line item.

SAMPLE DESIGN

We used a simple random sample.

SAMPLE SIZE

We selected a sample of 100 grouped line items.

SOURCE OF RANDOM NUMBERS

We generated the random numbers with the Office of Inspector General, Office of Audit
Services (OIG/OAS), statistical software.

METHOD FOR SELECTING SAMPLE ITEMS

We consecutively numbered the sampling frame. After generating 100 random numbers, we
selected the corresponding frame items.

ESTIMATION METHODOLOGY

We used OIG/OAS statistical software to estimate the amount of unallowable payments.
             APPENDIX B: SAMPLE RESULTS AND ESTIMATES

                                   Sample Results

                                                         Number of        Value of
               Value of                     Value of     Unallowable     Unallowable
Frame Size      Frame        Sample Size     Sample        Items            Items
 4,517,312   $225,256,674       100         $5,315.28        50           $3,331.87

                      Estimated Value of Unallowable Items
              (Limits Calculated for a 90-Percent Confidence Interval)

                  Point estimate                    $150,510,963
                  Lower limit                         36,768,343
                  Upper limit                        264,253,583

              Estimated Value of Unallowable Items (Federal Share)
              (Limits Calculated for a 90-Percent Confidence Interval)

                  Point estimate                    $107,782,047
                  Lower limit                         26,740,444
                  Upper limit                        188,823,649
                                                                                       Page 1 of 4


                    APPENDIX C: RESULTS FOR EACH SAMPLED ITEM

                                               Legend
 A        Assessments or reassessments not performed or not performed timely
 B        Missing or unapproved plans of care
 C        Service workers not qualified
 D        Discrepancies involving timesheets
 E        Services not documented
 F        Advanced personal care services not authorized or service worker not qualified
 G        Beneficiary not trained
 H        Units of service exceeded those specified in plan of care

     Office of Inspector General Review Determinations for the 100 Sampled Items
 Item                                                                    Number of
Number      A      B      C       D      E      F       G        H         Errors
   1        X      X              X                                           3
   2                                                                          0
     3                          X                                                          1
     4          X                                                                          1
     5                                                                                     0
      6                 X                                                                  1
      7                                                                                    0
      8                                                                                    0
      9                 X                                                                  1
     10         X                                                                          1
     11                                                                                    0
     12                         X                                                          1
     13         X       X                                                                  2
     14         X                                                                          1
     15                                                                                    0
     16                                                                                    0
     17                 X                                                                  1
     18                                                          X                         1
                                         Page 2 of 4



 Item                                    Number of
Number   A   B   C   D   E   F   G   H    Errors
  19                 X                      1
  20         X       X                      2
  21     X                                  1
  22             X                          1
  23                                        0
  24     X                                  1
  25                                        0
  26                                        0
  27                                        0
  28                                        0
  29     X           X                      2
  30                                        0
  31     X                                  1
  32                                        0
  33     X                                  1
  34                                        0
  35     X                                  1
  36     X                                  1
  37                                        0
  38         X                              1
  39             X                          1
  40     X   X                              2
  41                     X                  1
  42     X                                  1
  43                                        0
  44                                        0
  45                                        0
  46             X                          1
  47     X                                  1
  48                                        0
  49                                        0
                                          Page 3 of 4


 Item                                    Number of
Number   A   B   C   D   E   F   G   H    Errors
  50                                        0
  51     X                                   1

  52                     X                   1
  53         X                               1
  54     X                                   1
  55     X       X                           2
  56     X                                   1
  57     X                                   1
  58                                         0
  59                     X                   1
  60                                         0
  61                                         0
  62     X                                   1
  63                                         0
  64                                         0
  65     X                                   1

  66                                         0
  67     X                                   1
  68                         X               1
  69                                         0
  70                                         0
  71                                         0
  72                                         0
  73                                         0
  74                                         0
  75     X                                   1
  76     X                                   1
  77                                         0
  78     X                                   1
                                                          Page 4 of 4


 Item                                                     Number of
Number      A      B      C     D      E      F   G   H    Errors
  79                                                         0
   80                                                         0

   81                                                         0

   82              X                          X               2
   83                                                         0
   84                                  X                      1

   85                                                         0

   86                                                         0
   87                                                         0

   88       X                                                 1

   89                                                         0

   90                                                         0

   91                                                         0

   92              X                                          1

   93                                                         0

   94       X                                                 1
   95                                                         0
   96                                                 X       1
   97       X                                                 1
   98                                                         0

   99                                                         0
  100                                                         0

Total       29     11     6      4     4      2   1   1      58

Total Grouped Line Items With Errors                         50

Grouped Line Items With More Than One Error                  7
                                                                                                                                                    Page 10f6


               APPENDIX D: STATE AGENCY COMMENTS




               }bur Potential. OUI'S,,/)port.
                                                                J EREM IAH W. (JAY) N IXON, GO VERNOR ' BRIAN KINKADE, INT ERIM DIRECTOR

                                                                                                                                     MO HEALTHNET DIV ISION
                                                                                                                   1'.0. BOX 6500· JfH' £RSON On' . MO 65102-6500
                                                                                                                                www.nSS.Mo.GOV • 573-75 1-3425




Patrick J. Cog ley
Regiona l Inspector General for Aud it Services
Office of Inspector General
Office of Aud it Serv ices, Region VII
601 East 12th Street, Room 0429
Kansas City, MO 64 106

Dear Mr. Cogley :

       This is in response to the Offi ce of Inspector General 's (DIG) draft report entitled
"Missou ri Claims Fede ral Reimbursement for Unallowable Persona l Care Services Claims",
Report Number A-07-11 -031 71. The Department of Socia l Services' (055) responses are
be low. The DIG recommendations are restated fo r ease of reference.

        Recommendation 1: OIG recommends t hat t he State agency refund $26,953,8 55 t o the
Federa l Government.

        DSS Response: DSS strongly disagrees with th is recommendation. The recommended
disallowance is based on an extrapolation of purported deficiencies in a 100-ciaim samp le to a
universe of 4.5 mi llion cla ims. Th is sample represents approximately 0.002% of all personal
care se rvices claims for the period of October 1, 2008 through June 30, 2009, and the
recommended refund represents approximately 16 percent of t he federa l sha re of all personal
care expenditu res in t hat period. Th e Cited deficiencies do not support the recomme nded
refu nd, and the extrapolation is inappropriate .

       The OIG asserts that 58 deficiencies occurred in 50 claims (so me claims had multiple
deficiencies) and places each deficiency int o one of 8 categories:

       • 	 Assessments or reassessments not performed or not performed timely (29 claims)
           Missi ng or un approved plans of care (11 claims )
           Service wo rkers not qual ified (6 claims)
       • 	 Discrepancies involving timesheets (4 claims)
       • 	 Services not documented (4 claims)
       • 	 Advanced personal care serv ices not authorized or worker not qualified (2 claims)
           Beneficiary not trained (1 claim)
       • 	 Units of se rvice exceed those specified in t he plan of care ( 1 claim )

        In concluding that these items we re deficiencies that resu lted in an inva lid claim for
serv ices, the DIG mi sa pplies the State's pe rso nal ca re program requirements and procedures.
                                                                 R ELAY M ISSOUIH
                                                     FOR HEAR!NG AND SPEEC H !MPAIRED
                                       1-800-735-2466 VOICE ' 1-800- 735-2966 TEXT PHONE 

                               An liq,m! 01'1'",.wn;,y lim!"()J~r__, ·c n-ke.J I'"",;de<l 1>11 () non<ii"""mlll(JlI>ry ".",-j,•. 

                                                                                         Page 2 of6




1)   The OIG Misunderstand s MissourI's Reassessment Requirements

The OIG concluded that 29 claims-fully half of the cited deficiencies-were invalid
because of noncompl iance with the State's reassessment requirements. Twenty-five of
the 29 were cited because a reassessment had not been performed annua lly. However,
federal regu lations do not require an annua l reassessmen t . 42 C.F.R. § 440.167. In
addition, Missouri's state plan -which is the governing document determining the
availability of FFP-does not require annua l reassessment . As a resu lt, the federal
refund recommendation should be reduced to the extent it is based on sample claims
disallowed for lack of a timely reassessment.

The Missouri state plan is a "comprehensive written statement" that contains "all
information necessary " to determine the "basis for Federal financial participation (FFP) in
the State program. " 4 2 C.F.R. § 430.10 . The plan specifies that for personal care
services provided through the agency model, "a n assessment of need .. . must be
completed as needed to (re)determine the need for persona l ca re services." Att.3.1-A,
page 18ee (emphasis add ed) . The state plan section covering consumer-directed
personal care services, like the federa l regulations, is silent about the need or timing of
reassessments. Missouri does not construe its pla n as requiring annua l reassessments,
and a State is entitled to deference in a reasonable interpretation of the requirements of
its own state plan. Virgin ia Dep't of Med. Assistance, DAB 1838 (2002) .

The draft audit does not cite federal law or the state plan for the proposition that an
annua l reassessment Is required in Missouri, but instead cites Missouri state law and
regulations . See Mo. Rev . Stat. §§ 208.906.5, 208.930.8(1); Mo. Code Regs. Ann . tit.
19, §§ 15-8.200(4), (7). However, these provisions do not govern when FFP is available
from t he federal government. Moreover, the provisions do not address the conditions
under which Missouri Medicaid will make a payment for persona l care services. Notably,
the statute authorizing Medicaid payment for personal care services does not require
reassessments within a particular timeframe. Mo. Rev. Stat. § 208.152.1(14).

In addition, Missouri has not interpreted its law as requiring annual face-to-face
reassessments. In 2003, the Department of Health and Senior Services ( OHSS)
announced that annua l face-to-face reassessme nts were not required for all benefiCiaries
(on ly fo r beneficiaries who meet certain criteria). DHSS explained that, with the
exception of certain individuals, face-to-face reassessment was to occur every other
year, and "a nnual reassessment may be conducted by phone." Linda T. Allen, Dir.
Section for Senior Services, DHSS, Memorandum for Home and Community Service Field
Staff, EM-04 -0S (Sept. 11, 2003). Claim 76 was In perfect compliance with this po licy
(with biennia l face-to- face reassess ments in September 2007 and August 2009), but
OIG nonetheless recommends disa llowing the claim .

In any case, the purpose of the requirement is to ensure that services are provided to
qualifying individuals. The OIG 's findings do not establi sh that t he Medicaid se rvices
were provided to individuals who did not qualify fo r the service. It is important to
recognize that because of the condition of the individuals receiving persona l ca re
services, a reassessment rare ly will show improvement such that the individual wi ll no
longer qualify for the services. In fact, of the 29 participants in the OIG sample that had
not been reassessed within one year, 25 have since been reassessed. All 25 (100
                                                                                              Page 3 of6




percent } met the Level of Care criteria, and in some cases their level of ca re score
increased. The remaining 4 participants were not reassessed as they were dosed from
the program. Th e DIG's recom mended refund, by contrast, assumes Incorrectly that
persons w ho we re not reassessed annually were ineligible for the service, and project s
the findi ngs of the sample t o all personal ca re participants.

In addition, DSS notes that the State has recently taken steps to ensure that
reassessments are comp leted annually. The Fi scal Year 2013 state budget includ es
funding for providers to conduct reassessments, each of which will be scheduled for
completion based upon the an niversary date of the last assessment. Under thi s plan , all
client rea ssess ments should be current by the close of Fiscal Year 2013. Further, DH SS
staff will review and approve all reassessments submitted by providers.

For all of these reasons, an extrapo lated refund based on untimely reassessments is
inappropriate. Annual reassessments are not a requirement under federal regulations,
the state plan , or state pa yment reg ulations, and the recommended amount is based on
the incorrect assumption that services were provided to individuals who we re not eligible
for those services.

2) A Federal Disa llowance Based on All eged Noncompliance with State-Imposed
Requirements is Inappropriate When the State Itself Would Not Consider the Violations
to Result in An Invalid Claim for Services

The overwhelming majority of the purported deficiencies do not implicate any viol ation
of federal law, but rather amount to allegations of noncompliance-or missing
documentation of compliance-with State-imposed technical requirements. Specifically,
federal law does not require annual reassessments, particular se rvice worker
qualifications, specific Signatures on or certification of timesheets, rul es for the prov ision
of advanced personal care serv ices, or particular training for benefi ciaries of consumer­
directed services . While state regulations do set forth these requirements, they do not
require recoupment, and the State would not recoup, for noncompliance with th ese
particular provisions .

For most of the issues cited, the State has explained to the OIG that jf it found
noncompliance during its quality assurance activi ties, the State woul d cite the issue as a
defiCiency in a statement of deficiency report. Within 10 ca lendar days of receiv ing t hi s
repo rt, the provider would be required to respo nd with a Plan of Correction (POC), which
mu st be approved by t he State, and the State would schedu le a subsequent visit to
determine if the poe had been impl emented effectively. At least where, as here, state
law does not req uire recoupment for the type of alleged v iolation at issue, it is
inappropriate to take a federa l disallowance based on noncompliance with state law.
This position is consisten t with OMB Circular A-87, which requires that costs be
"a uthori zed or not prohibited under State or local laws or regulation s." 2 C. F,R, Pt. 225,
App'x A, c.1.c. Where state law does not require recoupment for a noncompli ant claim,
the cost of that claim is "a uthori zed or not prohibited" under state law.

Policy reasons also counsel against imposing a federal disallowance for noncompliance
w ith state la w . Requiring a federal refund discourages States from deve loping robust
regulatory regimes to ensure the sa fe delivery of the best health care possibl e, Further,
                                                                                           Page 40f6




federal auditors are not as well positioned to understand state rules and regulations as
are state auditors or other state quality assurance personne l and contractors.

3) A Refund is Not Appropriate Where a Service was Provided. but There was a
Technical Error jn Documentation

Even outside of the reassessment category, the overwhelming majority of the claims the
DIG characterizes as "unallowable" (in part or in full) pertain to personal care services
that were in fact provided to eligible Medicaid beneficiaries, but for which there was
allegedly a technical v iolation of state or federa l law. As with the reassessments, under
these Circumstances, a federal refund Is not an appropriate remedy.

Allegedly noncompliant plans of care. The draft report treats 11 claims with allegedly
noncompliant or miSSing plans of care as deficiencies warranting a disallowance, which
the OIG extrapolates to all claims for personal care services. This is not valid. The 11
purported plan of care -related deficiencies did not result in ineligible individuals
receiving services.

A plan of care in Missouri generally includes two documents, a DA-3 and a DA- 3a or DA­
3c. The DA-3 includes basic informatton: the name and signature of the participant, the
names and Signatures of the professionals involved in developing the plan, and basic
programmatic information. The DA- 3a (agency) or DA-3c (consumer-directed) includes
the actual terms of the participant'S plan of ca re : which services will be provided
(d ressing & grooming, hygiene, etc.), and the frequency and amount of those services.
Four of the disallowed claims included both of the documents, but the OIG nonetheless
recommends disallowance because the DA-3 was missing the participant's signature or
(i n one case) formal DHSS approval.

Further, at least 4 of the other 7 allegedly noncompliant claims included a DHSS­
approved DA-3a or a DA-3c (or an appropriate substitute) with the substantive terms of
the beneficiary's plan of care, but were missing the DA-3. For 3 of these 4 claims, DSS
has subm itted additional documentation under separate cover. DSS has located a DA-3
for claims 1 and 9, and an older DA-3a with the client's Signature (indicating the client
authorized the services) for claim 38. Additionally, for claim 17, DSS has submitted a
DA- 3 and a DA-3c. The documentation for claim 17 post-dates the services at issue by
two months, but It nonetheless demonstrates that the claim reflects services delivered to
an eligible Medicaid beneficiary .

In short , even putting aside the additional documentation located by the State, most of
the beneficiaries involved in these 11 allegedly noncompliant claims had a developed
plan of care, but either the provider forgot to obtain a Signature on the DA-3 or the DA-3
was simply misplaced. Under these Circumstances, it is highly unlikely that any services
we re provided to a beneficiary lacking a plan of care, and there is no evidence that
services were provided to someone Ineligible for these benefits.

DSS is continuing to search for and locate documents that the OIG asserts were missing,
and reserves the right to continue to update its subm issions.

Alleged ly defiCient timesheets. The OIG also disallowed 4 claims for noncompliance with
timesheet requirements. The OIG did not allege that any timesheets failed to support
                                                                                          Page 5 of6




the Medicaid services claimed, or even that the timesheets supporting the services were
missing. Rather, OIG recommends a disallowance because the timesheets were not
signed by the partiCipant (3 claims) or not certified by the vendor (1 claim). These
types of technical deficiencies do not suggest services were not provided, but more likely
reflect a provider forgetting to obtain a participant's signature or a certification .

Allegedly unqualifi ed service workers and an untrained beneficiary. The OIG's
allegations of noncompliance with state training requirements service workers did not
meet the State's qualifications, either generally or to provide advanced services (7
claims), and a consumer-directed services participant did not receive the requiSite
training (1 claim)-are entirely unrelated to whether an eligible beneficiary received the
services claimed.

4) Claim 96 Did Not Reflect payment fo r Services in Excess of Those Approyed in the
plan of Care

The OIG alleges that, in claim 96, more services were delivered and claimed than what
was approved in the plan of care . But Missouri's consumer-di rected services database
shows that this participant was actually authorized to receive services in excess of t he
units claimed in claim 96 . To be sure, this partiCipant's units were decreased in May
2009, but that was after these services were rendered. To the extent the DA-3c Is
inconsistent with this, it was likely filled-out in error.

5) Extrapolation is Inappropriate Under the Circumstances of this Audit

The OIG sampled a miniscule sliver (100) of 4,517,312 total claims sub mitted for federal
reimbursement from October I , 2008 through June 30, 2009. Using a 90-percent
confidence interval, the OIG nonetheless extrapo lates its findings, which purportedly
yields a lower limit of $26,740,444 and an upper limit of $188,823,649. That is, the
OIG ha s concluded that it is 90 percent confident that Missouri was paid somewhere
between $27 million and $189 million for unallowable claims. This imprecision is a far
cry from what one would expect from a federal investigative agency recommending
something as serious as a $27 million disallowance. (In fact, $189 million is actua lly
more than the $167 million total the State claimed in federa l fina ncial participation for
personal care services during the audit period.) The State opposes the use of a 100­
claim sample to draw conclusions about 4.5 million claims submitted by hundreds of
providers located in different areas throughout the State. Such a sma ll sample is
unlikely to capture a true picture of the large and diverse population of personal care
services claims submitted In Missouri.

ThiS extrapolation Is particu larly Inappropriate for the types of deficiencies for which the
OIG identified only a tiny number of alleged violations : service worker not qualified (6
claims), unsigned or uncertified timesheets (4 claims), services not documented (4
claims), advanced personal care services not authorized (1 claim), advanced personal
care serv ice worker not qualified (1 claim), beneficiary not trained (1 claim), and units of
service exceeding those speCified in the plan of care (1 claim). Th e sma ll number of
alleged violations re lated to each of these rules demonstrates that there is no
widespread or systemic noncompliance, and therefore extrapolation is unwarranted.
                                                                                               Page 6 of6




       Recommendation 2: DIG recommends that the State agency implement procedures to
ensure that it adequately supports the costs claims for personal care services on the CMS- 64
reports and maintains that supporting documentation.

       055 Response: 055 agrees with this recommendation. The State's procedures will be
reviewed to incorporate additional accuracy checks as appropriate.

       Recommendation 3: OIG recommends that the State agency work with DHSS to
improve its policies and procedures for monitoring the personal care services program for
compliance with Federal and State requirements .

       055 Response: DSS agrees with t his recommendation. The State's policies and
proced ures are current ly being reviewed and modified as appropriate.

       Please contact Jennifer Tidball, Director, Division of Finance and Administrative Services
at 573/751-7533 if you have further questions.




                                           Brian Kinkade
                                           Interim Director

BK/ic
